HHS/OIG-Audit--"Financial Review of the National Institute of Environmental Health Sciences' Use of Superfund Monies, (A-04-92-04103)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Financial Review of the National Institute of Environmental Health Sciences' Use of Superfund Monies," (A-04-92-04103)
August 6, 1993
Complete
Text of Report is available in PDF format (1.97 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that, with the exception of minor irregularities due to clerical errors, the National
Institute of Environmental Health Sciences generally administered the fund in accordance with Superfund legislation. However,
we noted internal control weaknesses involving: (1) grantee audits; (2) preparing the budget; and (3) submitting reimbursement
billings to the Environmental Protection Agency. The Public Health Service generally concurred with our findings and recommendations.